                            Closeout Memorandum for M99030009


    On March 3, 1999, the complainant1,a post-doctoral fellow, alleged that the subject2 and
    his collaborator3 (the co-subject) defrauded NSF in an NSF-funded award, violated
    animal regulations, misappropriated dissertation research results, refused to release
    research results, and retaliated against the complainant for reporting these complaints to
    the subject's instit~tion.~ We confirmed with the ~rovost'of the subject's institution that
    these allegations had been received by that institution and we formally deferred inquiry
    of this case to the subject's institution.

    Based upon all the evidence received and reviewed, the institution's inquiry committee
    concluded that there was no substance to any of the allegations of fraud, violation of
    animal regulations, misappropriation of research, refusal to release research results, or
    retaliation.

    We received the institution's inquiry report dated March 24, 2000. Based on our review
    of the report and accompanying evidence, we concluded the following:

    Regarding allegations of fraud - there was sufficient documentation to supportthe co-
    subject's claimed level of work, which was sufficient to support the amount of funds paid
    to the co-subject.

Regarding allegations of violation of animal regulations - there was sufficient evidence
that the NSF-funded experiments were appropriately reviewed and approved by the
institution's Animal Care and Use Committee.

Regarding the allegations of misappropriation of research results - there was no evidence
that the co-subject presented the complainant's work as his own. The subject and co-
subject provided authorship credit to the complainant, among other authors. There was
also no evidence that the subject provided undue authorship credit to the co-subject at the
expense of other collaborators, including the complainant.

Regarding the allegation of a refusal to release research results - the evidence indicates
that the subject never stated to the complainant that the complainant could not publish his
research results, and that in fact the complainant is free to publish his results whenever he
is ready to do so.

Regarding the allegation of retaliation - there is insufficient evidence to conclude that
any retaliatory acts occurred. The subject was not obligated to provide a letter of
reference nor was the complainant entitled to continue to have ongoing access to research

1
  Redacted.
  Redacted.
  Redacted.
  Redacted.
5
  Redacted.


                                       Page 1 of 2
facilitiesldata after the completion of his degree program or the tenure of his employment
at the institution.

The institution's Inquiry Committee report describes a fair, accurate, and thorough
evaluation of the facts relevant to the allegations. We have used the committee's report
and the accumulated evidence in forming our own conclusion and recommendation. We
concur with the committee's findings. This case is closed.


cc: Investigations, IG




                                    Page 2 of 2
